U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Troy Baker v. United States, No. 20-7231
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 17,
2021. The government’s response is now due, after one extension, on May 19, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including June 18, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7231
BAKER, TROY
USA

KENNETH P. TABLEMAN
KENNETH P. TABLEMAN, P.C.
161 OTTAWA AVENUE, NW
SUITE 404
GRAND RAPIDS, MI 49503-2701
616-233-0455
TABLEMANK@SBCGLOBAL.NET

